CERTIFICATE OF WORD COUNT
NO. 20-6700
Melissa Calabrese,
Petitioner,
v.
State of California, Et al.,
Respondents.
___________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. That, as required by Supreme Court Rule 33.1(h), I certify that the PROVIDENCE ST. JOSEPH
AND MISSION HOSPITAL BRIEF IN OPPOSITION contains 3155 words, including the parts of the brief that
are required or exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Lucas DeDeus
January 20, 2021

SCP Tracking: Holmes II-1301 Dove Street, Suite 700-Cover Orange

